OIG Investigative Reports Press Release Marrero, LA., 07/25/2013 -  Marrero Woman, Shanera Washington-Sylve, Pleads Guilty to Charges Related to Financial Aid Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT of LOUISIANA
NEWS
MARRERO WOMAN, SHANERA WASHINGTON-SYLVE, PLEADS GUILTY TO CHARGES RELATED TO FINANCIAL AID FRAUD
FOR IMMEDIATE RELEASE
July 25, 2013
SHANERA WASHINGTON-SYLVE, age 46, a resident of Marrero, Louisiana, pled guilty in federal court today before U.S. District Judge Lance M. Africk to one count of financial aid fraud, announced U. S. Attorney Dana J. Boente.
According to court documents, WASHINGTON-SYLVE submitted or caused to be submitted false Free Application for Federal Student Aid (“FAFSA”) forms, on behalf of her daughter for the 2009 through 2013 academic years, falsely stating that she was “single.”  As a result of WASHINGTON-SYLVE’s false statements in the applications, her daughter fraudulently received approximately $23,196 in Federal Pell Grants from the United States Department of Education, an agency and department of the United States.
WASHINGTON-SYLVE faces a maximum term of imprisonment of five years, a $20,000 fine, and three years of supervised release following imprisonment.  Sentencing is set for October 24, 2013 at 2:00 PM.
The case was investigated by the U.S. Department of Education, Office of Inspector General, and prosecuted by Assistant U. S. Attorney Julia K. Evans.
(Download Factual Basis) (PDF)
Top
Printable view
Last Modified: 08/01/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov